U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 25, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Daniel Lovato v. United States, No. 20-6436
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
20, 2020, and placed on the Court’s docket on November 25, 2020. The response of the United
States is now due, after one extension, on January 27, 2021. We respectfully request, under Rule
30.4 of the Rules of this Court, a further extension of time to and including February 26, 2021,
within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6436
LOVATO, DANIEL
USA

SHIRA KIEVAL
OFFICE OF THE PUBLIC DEFENDER
633 17TH STREET
SUITE 1000
DENVER, CO 80202
SHIRA.KIEVAL@FD.ORG
SHANA-TARA O'TOOLE
DUE PROCESS INSTITUTE
700 PENNSYLVANIA AVENUE, SE
SUITE 560
WASHINGTON, DC 20003
202-558-6680
SHANA@IDUEPROCESS.ORG

